Case: 19-11391

Date Filed: 03/13/2020

Page: 1 of 12

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11391
Non-Argument Calendar
D.C. Docket No. 2:18-cv-00112-SCJ
TIM SUNDY,
Plaintiff-Appellant,
versus
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC,
GARY PICONE,
THOMAS LING,
MICHAEL WEINSTEIN,
ARSENAL REAL ESTATE FUND II-IDF,
L.P.,
GEORGIA DEPARTMENT OF
TRANSPORTATION,
et al.,
Defendants-Appellees.
Appeal from the United States District Court
for the Northern District of Georgia
(March 13,2020)

A001

Case: 19-11391

Date Filed: 03/13/2020

Page: 2 of 12

Before NEWSOM, BRANCH, and HULL, Circuit Judges.
PER CURIAM:
Tim Sundy, proceeding pro se, appeals the dismissal of his complaint
brought under 42 U.S.C. §§ 1983 and 1985 for alleged violations of his
constitutional rights. His suit arises out of a lease and road-construction dispute in
state court in 2015, and Sundy’s subsequent state-court action against various
parties and state-court judges involved in the litigation (some of which were
removed to federal court). While the state-court action was pending, Sundy filed
the present suit in federal court naming various individuals and entities as
defendants, including (as relevant here): (1) employees in the Hall County clerk’s
office (collectively, the clerk defendants); (2) Christopher Carr, Georgia’s Attorney
General (Carr); and (3) Friendship Pavilion Acquisition Company, LLC, the
Arsenal Real Estate Fund II-IDF, L.P., Gary Picone, Thomas Ling, and Michael
Weinstein (collectively, the Friendship defendants). i
Liberally construing his briefs, Sundy first asserts on appeal (a) that the
district court erred in dismissing his claims against Carr and the clerk defendants

i

Sundy also named various other parties as defendants, but he abandoned his claims against
them by failing to challenge in his initial brief all or part of the bases for dismissal cited by the
district court. See Timson v. Sampson, 518 F.3d 870, 874 (11th Cir. 2008); see also Sapuppo v.
Allstate Floridian Ins. Co., 739 F.3d 678, 683 (11th Cir. 2014) (explaining that if an appellant
does not appropriately challenge in an initial brief one of the grounds on which the district court
based its judgment, he is deemed to have abandoned any challenge to that ground, and the
district court’s judgment should be affirmed).
2

A002

Case: 19-11391

Date Filed: 03/13/2020

Page: 3 of 12

based on the abstention doctrine set out in Younger v. Harris, 401 U.S. 37 (1971),
because, he says, his due process and equal protection claims were not presented to
the state court and are “independent” of the state-court proceedings,2 and (b) that
the district court erred in not allowing him to amend his complaint. Second, he
argues that the district court erred (a) by dismissing the claim against Friendship as
nonjusticiable because his requested declaratory relief would not redress his
alleged injuries, and (b) by granting Friendship’s motion to set aside entry of
default even though it did not “present[] a meritorious defense.” Finally, he argues
that the removal of documents from the district court’s docket, a delay in fixing
clerical mistakes, and a “secret” ex parte hearing by the court to find the missing
documents violated his right to due process to be fully heard upon a complete
record, “depriv[ed] [him] of his right to avoid cross-examine,” and “nullified] the
confrontation clause of the 6th Amendment.”3 We will address each contention in
turn.

2 Sundy’s claims are difficult to discern. At times, he seems to contend that various state-court
employees engaged in a conspiracy against him—including by removing papers from the docket
and conducting hearings without him. At other times, he simply (and even more vaguely) asserts
that his due process, equal protection, and access-to-courts rights were violated.
3 Sundy also argues that the district court erred in denying his motion to proceed in forma
pauperis (IFP) as frivolous; however, this is not a final, appealable order. See 28 U.S.C. § 1291.
We note that the proper procedure for challenging the district court’s decision was through a
motion to proceed IFP in this Court, which we denied because his appeal was frivolous.
Moreover, because he paid the requisite filing fee, any issue in this respect is moot. Therefore,
we dismiss his appeal with respect to this issue.
3

A003

Case: 19-11391

Date Filed: 03/13/2020

Page: 4 of 12

I
Sundy first argues (a) that the district court erred in dismissing his claims
against Carr and the clerk defendants based on the Younger abstention doctrine and
(b) that the district court erred in not allowing him to amend his complaint.4
A
In Younger, the Supreme Court held that a federal district court may not
enjoin a pending criminal state-court proceeding except under extraordinary
circumstances. Green v. Jefferson Cty. Comm 'n, 563 F.3d 1243, 1250 (11th Cir.
2009); see also Younger, 401 U.S. 37. The Supreme Court has since expanded the
Younger doctrine to include, as relevant here, civil proceedings that “implicate
state courts important interests in administering certain aspects of
their judicial systems.” Green, 563 F.3d at 1250-51 (quotation omitted).
Especially as applied to civil cases, the Younger abstention doctrine is “an
extraordinary and narrow exception to the duty of a district court to adjudicate a
controversy properly before it.” Id. at 1251 (quotation omitted). As such, the
doctrine “only applies where the state proceeding at issue involves orders that are

4 “We review de novo the district court’s grant of a motion to dismiss,” Timson, 518 F.3d at 872,
but review a district court’s decision to abstain on Younger grounds for an abuse of discretion,
Wexler v. Lepore, 385 F.3d 1336, 1338 (11th Cir. 2004). “[W]e review de novo the underlying
legal conclusion of whether a particular amendment to the complaint would be futile. Chang v.
JPMorgan Chase Bank, N.A., 845 F.3d 1087,1093-1094 (11th Cir. 2017) (quotation omitted).
4

A004

Case: 19-11391

Date Filed: 03/13/2020

Page: 5 of 12

uniquely in furtherance of the state courts’ ability to perform
their judicial functions.” Id. (quotation omitted).
For Younger abstention to apply, certain factors must be met—(1) the state
judicial proceedings must be ongoing, (2) the proceedings must “implicate
important state interests,” and (3) the federal plaintiff must have had “an adequate
opportunity” to raise constitutional challenges in the state proceedings. See 31
Foster Children v. Bush, 329 F.3d 1255, 1274-75 (11th Cir. 2003) (quotation
omitted); see also Middlesex Cty. Ethics Comm. v. Garden State Bar Ass ’n, 457
U.S. 423, 432 (1982). The first factor is met when a state proceeding is ongoing
and the relief that plaintiff seeks would interfere with it. 31 Foster Children, 329
F.3d at 1276. As for the second factor, the Supreme Court has repeatedly
recognized that states “have important interests in administering certain aspects of
their judicial systems.” Pennzoil Co. v. Texaco, Inc., 481 U.S. 1, 12-13 (1987).
With respect to the third factor, “plaintiffs have the burden of establishing that the
state proceedings do not provide an adequate remedy for their federal claims.” 31
Foster Children, 329 F.3d at 1279. “A federal court should assume that state
procedures will afford an adequate remedy, in the absence of unambiguous
authority to the contrary.” Id. (quotation omitted). “The relevant question is not
whether the state courts can do all that Plaintiffs wish they could, but whether the
available remedies are ... adequate. Id. (alteration omitted) (quotation omitted).

5

A005

Case: 19-11391

Date Filed: 03/13/2020

Page: 6 of 12

Younger abstention applies to claims for injunctive relief as well as claims
for declaratory relief “that would effectively enjoin state proceedings.” Old
Republic Union Ins. Co. v. Tillis Trucking Co., 124 F.3d 1258, 1261, 1263-64
(11th Cir. 1997). Additionally, Younger abstention may apply to § 1983 claims
raising constitutional challenges relating to an ongoing state proceeding. See Doby
v. Strength, 758 F.2d 1405, 1405-06 (11th Cir. 1985).
To the extent that Sundy sought a declaratory judgment stating, among other
things, that the manner in which the state court accepted his pleadings was
unconstitutional, those orders were “uniquely in furtherance of the state court[’s]
ability to perform [its] judicial function[].” See Green, 563 F.3d at 1251
(quotation omitted). Furthermore, each of the Younger abstention factors has been
satisfied here—the state-court proceedings were ongoing and implicated an
important state interest, and Sundy failed to offer any evidence to overcome the
presumption that the state processes can provide an adequate remedy, especially
where he has filed appeals and writs of mandamus in the Georgia Court of Appeals
and Georgia Supreme Court. Accordingly, the district court did not abuse its
discretion by dismissing Sundy’s claims against Carr and the clerk defendants
based on the Younger abstention doctrine.

6

A006

Case: 19-11391

Date Filed: 03/13/2020

Page: 7 of 12

B
Under Federal Rule of Civil Procedure 15(a), “a district court ‘should freely
give leave’ to amend a complaint ‘when justice so requires.”’ Chang, 845 F.3d at
1094 (quoting Fed. R. Civ. P. 15(a)(2)). But importantly, “a district court may
properly deny leave to amend the complaint under Rule 15(a) when such
amendment would be futile, such as when the complaint as amended is still subject
to dismissal because, for example, it fails to state a claim for relief.” Id. (quotation
omitted).
Here, an amended complaint would have been futile because further
allegations of similar activity—i.e., assertions that his constitutional rights were
violated, whether in conjunction with a conspiracy to remove papers and hold
secret hearings or otherwise—would have been equally subject to dismissal under
the Younger doctrine. Therefore, the district court did not err in refusing to allow
Sundy leave to amend his complaint.
II
Second, Sundy asserts that the district court erred (a) by dismissing his claim
against Friendship as nonjusticiable, and (b) by granting Friendship’s motion to set
aside entry of default.5

5 We review questions of subject-matter jurisdiction de novo. Pintando v. Miami-Dade Hous.
Agency, 501 F.3d 1241, 1242 (11th Cir. 2007). We review a district court’s ruling on a motion
7

A007

Case: 19-11391

»ate Filed: 03/13/2020

Page: 8 of 12

A
“Any time doubt arises as to the existence of federal jurisdiction, we are
obliged to address the issue before proceeding further.” Atlanta Gas Light Co. v.
Aetna Cas. & Sur. Co., 68 F.3d 409, 414 (11th Cir. 1995). In all cases asserting
claims under the Declaratory Judgment Act—such as this one—“the threshold
question is whether a justiciable controversy exists.” Id. “Congress limited federal
jurisdiction under the Declaratory Judgment Act to actual controversies, in
statutory recognition of the fact that federal judicial power under Article III,
Section 2 of the,United States Constitution extends only to concrete ‘cases or
controversies.’” Id.
“The party who invokes a federal court’s authority must show, at an
‘irreducible minimum,’ that at the time the complaint was filed, he has suffered
some actual or threatened injury resulting from the defendant’s conduct, that the
injury fairly can be traced to the challenged action, and that the injury is likely to
be redressed by favorable court disposition.” Id. (quotation omitted). The
Supreme Court has explained that “[t]he requirement of [ah] actual injury
redressable by the court, serves several of the implicit policies embodied in Article
III.” Valley Forge Christian Coll. v. Ams. Unitedfor Separation of Church &

to set aside an entry of default for abuse of discretion. See Compania Interamericana ExportImport, S.A. v. Compania Dominicana de Aviacion, 88 F.3d 948, 950 (11th Cir. 1996).
8

A008

Case: 19-11391

Date Filed: 03/13/2020

Page: 9 of 12

State, 454 U.S. 464, 472 (1982) (citation and quotations omitted). “It tends to
assure that the legal questions presented to the court will be resolved ... in a
concrete factual context conducive to a realistic appreciation of the consequences
of judicial action.” Id
Here, even if the district court gave Sundy precisely what he asked for—a
declaratory judgment stating that Friendship submitted a false affidavit with the
Georgia Department of Transportation—that relief, alone, could not actually
redress his alleged harm (deprivation of property) or completely resolve this case.
Instead, it would only resolve a collateral issue; he would still have to return to
state court, where he might (or might not) be able to use the declaratory judgment
in support of a new suit seeking monetary damages. Cf. Calderon v. Ashmus, 523
U.S. 740, 746-47 (1998) (holding that a litigant’s request under the Declaratory
Judgment Act for what is in effect “an advance ruling” on a collateral issue—rather
than a “conclusive determination” of the underlying controversy—does not
constitute an Article III “case or controversy”). Therefore, Sundry’s alleged injury
was not likely to be redressed by a favorable court disposition, and the district
court did not err in dismissing the claims against the Friendship defendants as
nonjusticiable.

9

A009

Case: 19-11391

Date Filed: 03/13/2020

Page: 10 of 12

B
“[W]e have a strong preference for deciding cases on the merits—not based
on a single missed deadline—whenever reasonably possible.” Perez v. Wells
Fargo N.A., 11A F.3d 1329, 1332 (11th Cir. 2014). We have explained that
Federal Rule of Civil Procedure 55(a) “mandates the entry of default so that the
adversary process [will not be] halted because of an essentially unresponsive
party.” Id. at 1337 (alteration in original) (quotation omitted). “[A] motion for
relief under Rule 55(c)... is appropriate .. . even when there has not been a
formal entry of default. ...” Id. (alteration adopted) (quotation omitted). “The
court may set aside an entry of default for good cause.” Fed. R. Civ. P. 55(c);
Perez, 774 F.3d at 1337-38. “Good cause” is a flexible, “mutable standard.”
Compania Interamericana Export-Import, S.A. v. Compania Dominicana de
Aviacion, 88 F.3d 948, 951 (11th Cir. 1996) (quotation omitted). To determine
what constitutes good cause, courts have considered, but are not limited to, factors
such as the willfulness of the default, “whether setting it aside would prejudice the
adversary, and whether the defaulting party presents a meritorious defense.” Id.
(addressing the denial of a Rule 55(c) motion). “Whatever factors are employed,
the imperative is that they be regarded simply as a means of identifying

10

A0010

Case: 19-11391

Date Filed: 03/13/2020

Page: 11 of 12

circumstances which warrant the finding of ‘good cause’ to set aside a default.”
Id. (quotation omitted).
Here, Friendship had a meritorious defense—i.e., that the case was
nonjusticiable. Given that fact, and the other attendant circumstances, the district
court did not abuse its discretion by setting aside the entry of default.
Ill
Finally, Sundy contends that the removal of documents from the district
court’s docket, a delay in fixing clerical mistakes, and a “secret” ex parte hearing
by the court to find the missing documents violated his constitutional rights.6
“A district court must be able to exercise its managerial power to maintain
control over its docket.” Young v. City ofPalm Bay, 358 F.3d 859, 864 (11th Cir.
2004). “This power is necessary for the court to administer effective justice and
prevent congestion.” Id. The former Fifth Circuit explained that “court resources
and capacities are finite,” and so, “within proper limits, judges must be permitted
to bring management power to bear upon massive and complex litigation to
prevent it from monopolizing the services of the court to the exclusion of other

6 “We review a district court’s decision made in the course of managing its docket for an abuse
of discretion.” Scantlandv. Jeffry Knight, Inc., 721 F.3d 1308, 1320 (11th Cir. 2013). “The
district court has a range of options; and so long as the district court does not commit a clear
error in judgment, we will affirm the district court’s decision.” Young v. City of Palm Bay, 358
F.3d 859, 863 (1 1th Cir. 2004).
11

A0011

Case: 19-11391

Date Filed: 03/13/2020

Page: 12 of 12

litigants.” In re Air Crash Disaster at Florida Everglades, 549 F.2d 1006, 1012
(5th Cir. 1977).
Here, the district court did not abuse its discretion when it corrected the
docketing errors to which Sundy objected. Likewise, given the complexity of the
litigation, involving numerous parties and filings, the court did not take an
unreasonably long time to rule on the motions to dismiss, which fully disposed of
the case and made discovery unnecessary. Finally, the district court did not hold a
secret, ex parte meeting by speaking with the court clerks about allegedly missing
documents without Sundy present, and Sundy’s decision not to appear at the
motions hearing, despite clearly being aware of it, did not make it an unlawful ex
parte hearing. Accordingly, Sundy failed to show any actual harm or abuse of
discretion by the district court in this respect.
AFFIRMED IN PART AND DISMISSED IN PART.

12

A0012

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 1 of 9
4months,STAY,SUBMDJ

U.S. District Court
Northern District of Georgia (Gainesville)
CIVIL DOCKET FOR CASE #: 2:18-cv-00112-SCJ
Sundy et al v. Friendship Pavilion Acquisition Company, LLC et
al
Assigned to: Judge Steve C. Jones
Cause: 42:1983 Civil Rights Act
Plaintiff
Tim Sundy

Date Filed: 07/10/2018
Jury Demand: Plaintiff
Nature of Suit: 440 Civil Rights: Other
Jurisdiction: Federal Question

represented by Tim Sundy
227 Sandy Springs Place
Suite D-465
Sandy Springs, GA 30328
PRO SE

Plaintiff
David Sundy

represented by David Sundy
321 Blacksmith Arch
Yorktown, VA 23693
PRO SE

Plaintiff
Nova-Lee Graber

represented by Nova-Lee Graber
P.O. Box 76320
Atlanta, GA 30358
PRO SE

V.
Defendant
Friendship Pavilion Acquisition
Company, LLC

represented by Robert C. Khayat, Jr.
The Khayat Law Firm
75 Fourteenth Street NE
Suite 2750
Atlanta, GA 30309
404-978-2750
Fax: 404-572-5137
Email: rkhavatffikhavatlawfirm.com
A TTORNEY TO BE NOTICED

Defendant
Gary Picone

Pendant
Thomas Ling
Defendant
Michael Weinstein
Defendant
Arsenal Real Estate Fund II-1DF, L.P.
Defendant
Georgia Department of Transportation

represented by William Winford Peters
Georgia Department of Law
Office of the Attorney General

A0013

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 2 of 9
40 Capitol Square, S.W.
Atlanta, GA 30334-1300
404-656-3300
Email: wpeters@law.pa.gov
A TTORNEY TO BE NOTICED
Defendant
Christopher Carr

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
C. Andrew Fuller

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Martha C. Christian

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Jacques "Jack&quot Partain

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Bonnie Oliver

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Brenda Weaver

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Richard T. Winegarden

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
G. Grant Brantley

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Clint G. Bearden

represented by William Winford Peters
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Charles Baker

represented by William H. Blalock
Stewart Melvin & Frost
6th Floor Hunt Tower
P.O. Box 3280
200 Main Street
Gainesville, GA 30501
770-536-0101

A0014

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 3 of 9
Email: whlalock@smf-law.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
J. Douglas Stewart, Sr.
Stewart Melvin & Frost, LLP
P.O. Box 3280
Gainesville, GA 30503
770-536-0101
Email: dstewart@smf-law.com
A TTORNEY TO BE NOTICED
Defendant
Lisa Cook

represented by William H. Blalock
(See above for address)
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
J. Douglas Stewart, Sr.
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Brenda Brady

represented by William H. Blalock
(See above for address)
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
J. Douglas Stewart, Sr.
(See above for address)
A TTORNEY TO BE NOTICED

Defendant
Jay W. Cook
Defendant
Nova Casualty Company
c/o David Swartz

represented by William T. Mitchell
Cruser, Mitchell, Novitz, Sanchez, Gaston
& Zimet, LLP
Suite 2000, Meridian II
275 Scientific Drive
Norcross, GA 30092

404-881-2622
Fax:404-881-2630
Email: hmitche11@cmlawfirm.com
LEAD ATTORNEY
A TTORNEY TO BE NOTICED
Karen Eleice Woodward
Cruser, Mitchell, Novitz, Sanchez, Gaston
& Zimet, LLP
Suite 2000, Meridian II
275 Scientific Drive
Norcross, GA 30092

404-881-2622
Fax:404-881-2630
Email: kwnndwardfficmlawfirm.com
A TTORNEY TO BE NOTICED
Marisa Catherine McNat Bcllcr
Cruser, Mitchell, Novitz, Sanchez, Gaston
& Zimet, LLP

A0015

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 4 of 9
Suite 2000, Meridian II
275 Scientific Drive
Norcross, GA 30092
678-684-2147
Email: mbeller@cmlawfirm.com
A TTORNEY TO BE NOTICED
Date Filed
07/10/2018

Docket Text

#

1 COMPLAINT with Jury Demand filed by David Sundy, Tim Sundy, and Nova-Lee

Graber. (Filing fee $400, receipt number GAN200004827) (Attachments: # 1 Exhibit
1, # 2 Exhibit 2, # 2 Exhibit 3, # 4 Exhibit 4, # 2 Civil Cover Sheet)(dgr) Please visit
our website at http://www.gand.uscourts.gov/commonly-used-forms to obtain Pretrial
Instructions and Pretrial Associated Forms which includes the Consent To Proceed
Before U.S. Magistrate form. (Entered: 07/10/2018)

07/10/2018

2 Summons Issued as to Friendship Pavilion Acquisition Company, LLC, Nova Casualty
Company, Jacques "Jack" Partain, Michael Weinstein. (Attachments: # 1 Summons
Nova, # 2 Summons Jacques "Jack" Partain, # 2 Summons Friendship Pavilion
Acquisition Company, LLC)(dgr) (Entered: 07/10/2018)

07/11/2018

2 Summons Issued as to Charles Baker, (dgr) (Entered: 07/11/2018)

07/23/2018

4

Summons Issued as to Clint G. Bearden, Brenda Brady, G. Grant Brantley, Lisa Cook,
C. Andrew Fuller, Georgia Department of Transportation, Bonnie Oliver, and Richard
T. Winegarden. (Attachments: # 1 Summons Oliver, # 2 Summons GDOT, # 2
Summons Brantley, # 4 Summons Fuller, # 5 Summons Cook, # 6 Summons Brady, #
2 Summons Bearden)(dgr) (Entered: 07/24/2018)

07/26/2018

5

ORDER OF RECUSAL. Judge Richard W. Story recused. Case reassigned to Judge
Steve C. Jones for all further proceedings NOTICE TO ALL COUNSEL OF
RECORD: The Judge designation in the civil action number assigned to this case has
been changed to 2:18-cv-l 12-SCJ. Please make note of this change in order to
facilitate the docketing of pleadings in this case. Signed by Judge Richard W. Story on
07/26/2018. (dgr) (Entered: 07/26/2018)
Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy, and Tim Sundy re
2 Order of Recusal, (dgr) (Entered: 07/26/2018)

07/26/2018
07/30/2018

£ Summons Issued as to Martha C. Christian, (dgr) (Entered: 07/30/2018)

07/30/2018

2 MOTION for Leave to File Supplemental Complaint with Memo in Support by
Nova-Lee Graber, David Sundy, and Tim Sundy. (Attachments: # 1 Memo in
Support)(dgr) (Entered: 07/30/2018)

07/31/2018

£ MOTION to Dismiss with Brief In Support by Clint G. Bearden, G. Grant Brantley,

Christopher Carr, Martha C. Christian, C. Andrew Fuller, Georgia Department of
Transportation, Bonnie Oliver, Jacques "Jack&quot Partain, Brenda Weaver, Richard
T. Winegarden. (Attachments: # 1 Brief In Support)(Peters, William) (Entered:
07/31/2018)

07/31/2018

12 NOTICE Of Filing by Nova-Lee Graber, David Sundy, and Tim Sundy. (dgr)
(Entered: 08/06/2018)

08/01/2018

2 MOTION to Dismiss with Brief In Support by Nova Casualty Company.
(Attachments: # 1 Brief)(Woodward, Karen) (Entered: 08/01/2018)

08/01/2018

m

08/09/2018

12 MOTION to Stay Proceedings with Brief In Support by Clint G. Bearden, G. Grant

ANSWER to 1 COMPLAINT by Charles Baker, Brenda Brady, Lisa Cook. Discovery
ends on 12/31/2018.(Stewart, J.) Please visit our website at
http://www.gand.uscourts.gov to obtain Pretrial Instructions. (Entered: 08/01/2018)
Brantley, Christopher Carr, Martha C. Christian, C. Andrew Fuller, Georgia
Department of Transportation, Bonnie Oliver, Jacques "Jack&quot Partain, Brenda
Weaver, Richard T. Winegarden. (Attachments: # 1 Brief In Support)(Peters, William)
(Entered: 08/09/2018)___________________________________________________

A0016

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 5 of 9
08/09/2018

.14

ORDER granting H Motion to Stay. Proceedings in this matter are stayed pending the
resolution of Defendants' motion to dismiss. Signed by Judge Steve C. Jones on
8/9/2018. (rjs) (Entered: 08/09/2018)

08/09/2018

11

MOTION to Stay Discovery and Other Proceedings by Nova Casualty Company.
(Attachments: # 1 Text of Proposed Order)(Woodward, Karen) (Entered: 08/09/2018)
Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy, Tim Sundy re 14
Order, (rjs) (Entered: 08/10/2018)

08/10/2018
08/10/2018

11

ORDER granting 15, Motion to Stay Discovery And Other Proceedings. IT IS
ORDERED that discovery and other proceedings, including the Rule 26 conference,
are stayed pending the Court's resolution of this defendant's 2 MOTION TO DISMISS.
Signed by Judge Steve C. Jones on 8/10/2018. (rjs) (Entered: 08/10/2018)
Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy, Tim Sundy re 16
Order, (rjs) (Entered: 08/10/2018)

08/10/2018
08/13/2018

11

MOTION to Stay with Brief In Support by Charles Baker, Brenda Brady, Lisa Cook.
(Attachments: # I Brief, # 2 Text of Proposed Order)(Stewart, J.) (Entered:
08/13/2018)

08/13/2018

18

MOTION to Dismiss with Brief In Support by Charles Baker, Brenda Brady, Lisa
Cook. (Attachments: # 1 Brief)(Stewart, J.) (Entered: 08/13/2018)

08/16/2018

12

ORDER granting 12 Motion to Stay. Proceedings in this matter are stayed pending
resolution of Defendants Baker, Cook and Brady's motion to dismiss. Signed by Judge
Steve C. Jones on 8/16/2018. (rjs) (Entered: 08/16/2018)
Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy and Tim Sundy re
19 Order, (rjs) (Entered: 08/16/2018)

08/16/2018
08/16/2018

20 MOTION for Summary Judgment on the Property Owner's Affidavit with Brief In
Support by David Sundy and Tim Sundy. (Attachments: # 1 Brief In Support of
Motion for Summary Judgment)(dgr) —Please refer to http://www.gand.uscourts.gov
to obtain the Notice to Respond to Summary Judgment Motion form contained on the
Court's website.— (Entered: 08/17/2018)

08/16/2018

21

08/16/2018

22 Statement of Material Facts Not in Dispute For Which There is No Genuine Issue to be

Statement of Material Facts Not in Dispute for Which There is No Genuine Issue to be
Tried re 20 MOTION for Summary Judgment filed by Tim Sundy. (dgr) (Entered:
08/17/2018)
Tried re 2Q MOTION for Summary Judgment filed by David Sundy. (dgr) (Entered:
08/17/2018)

08/16/2018
08/16/2018

22 NOTICE Of Filing by Tim Sundy (dgr) (Entered: 08/17/2018)
24 NOTICE Of Filing by David Sundy (dgr) (Entered: 08/17/2018)

08/16/2018

22, NOTICE Of Filing Scotus Petition by Tim Sundy (dgr) (Entered: 08/17/2018)

08/17/2018

26

08/20/2018

22 RESPONSE in Opposition re 9 MOTION to Dismiss filed by Nova-Lee Graber,

RESPONSE in Opposition re 8 MOTION to Dismiss filed by Nova-Lee Graber,
David Sundy, and Tim Sundy. (dgr) (Entered: 08/17/2018)
David Sundy, Tim Sundy. (dgr) (Entered: 08/21/2018)

08/20/2018

28. RESPONSE in Opposition re jj£ MOTION to Dismiss filed by Nova-Lee Graber,
David Sundy, Tim Sundy. (dgr) (Entered: 08/21/2018)

08/24/2018

23.

RESPONSE in Opposition re 21 MOTION for Summary Judgment filed by Charles
Baker, Brenda Brady, Lisa Cook, Nova Casualty Company. (Woodward, Karen)
(Entered: 08/24/2018)

08/24/2018

m

MOTION for Leave to File with Brief In Support by Nova Casualty Company.
(Attachments: # I Brief, # 2 Text of Proposed Order)(Woodward, Karen) (Entered:
08/24/2018)________________________________________________________

A0017

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 6 of 9
08/24/2018

11 RESPONSE in Opposition re 7 MOTION for Leave to File Supplemental Complaint
filed by Nova Casualty Company. (Woodward, Karen) (Entered: 08/24/2018)

08/24/2018

12 MOTION to Strike 12 Notice of Filing with Brief In Support by Nova-Lee Graber,
David Sundy, Tim Sundy. (Attachments: # 1 Brief In Support of Motion to
Strike)(dgr) (Entered: 08/27/2018)

08/24/2018

11. AFFIDAVIT in Support re 32 MOTION to Strike 12 Notice of Filing filed by Tim
Sundy. (dgr) (Entered: 08/27/2018)

08/24/2018

14 AFFIDAVIT in Support re 12 MOTION to Strike 12 Notice of Filing filed by David
Sundy. (dgr) (Entered: 08/27/2018)

08/24/2018

15 AFFIDAVIT in Support re 12 MOTION to Strike 12 Notice of Filing filed by
Nova-Lee Graber. (dgr) (Entered: 08/27/2018)

08/29/2018

16 REPLY to Response to Motion re 8 MOTION to Dismiss filed by Clint G. Bearden, G.
Grant Brantley, Christopher Carr, Martha C. Christian, C. Andrew Fuller, Georgia
Department of Transportation, Bonnie Oliver, Jacques "Jack&quot Partain, Brenda
Weaver, Richard T. Winegarden. (Peters, William) (Entered: 08/29/2018)

08/29/2018

17 MOTION to Stay Plaintiffs' Motion for Summary Judgment with Brief In Support by
Clint G. Bearden, G. Grant Brantley, Christopher Carr, Martha C. Christian, C.
Andrew Fuller, Georgia Department of Transportation, Bonnie Oliver, Jacques
"Jack&quot Partain, Brenda Weaver, Richard T. Winegarden. (Attachments: # 1
Brief)(Peters, William) (Entered: 08/29/2018)

08/30/2018

18 RESPONSE in Opposition re J_8 MOTION to Dismiss and Objection to Scrivener
Error filed by Nova-Lee Graber, David Sundy, Tim Sundy. (dgr) (Entered:
08/30/2018)

08/30/2018

12 MOTION for Separate Trials with Brief In Support by David Sundy, Tim Sundy.
(Attachments: # 1 Brief In Support of Motion for Separate Trials)(dgr) (Entered:
08/30/2018)

09/04/2018

40 REPLY BRIEF re 9 MOTION to Dismiss filed by Nova Casualty Company.
(Woodward, Karen) Modified on 9/5/2018 to edit event text (rjs). (Entered:
09/04/2018)

09/04/2018

41. REPLY to Response to Motion re J_8 MOTION to Dismiss filed by Charles Baker,
Brenda Brady, Lisa Cook. (Blalock, William) (Entered: 09/04/2018)
Return of Service Executed by Tim Sundy. Nova Casualty Company served on
7/12/2018, answer due 8/2/2018. (dgr) (Entered: 09/12/2018)

09/11/2018

42

09/11/2018

41 Return of Service Executed by Tim Sundy. Friendship Pavilion Acquisition Company,
LLC served on 7/12/2018, answer due 8/2/2018. (dgr) (Entered: 09/12/2018)

09/12/2018

44 RESPONSE re 12 MOTION Separate Trials filed by Charles Baker, Brenda Brady,
Lisa Cook. (Stewart, J.) (Entered: 09/12/2018)

09/13/2018

45 RESPONSE re 32 MOTION Separate Trials filed by Nova Casualty Company.
(Woodward, Karen) (Entered: 09/13/2018)

09/13/2018

46 RESPONSE re 12 MOTION Separate Trials filed by Clint G. Bearden, G. Grant

Brantley, Christopher Carr, Martha C. Christian, C. Andrew Fuller, Georgia
Department of Transportation, Bonnie Oliver, Jacques "Jack&quot Partain, Brenda
Weaver, Richard T. Winegarden. (Peters, William) (Entered: 09/13/2018)

10/01/2018

41

REPLY to 44 45 46 Response to Motion re 12 MOTION Separate Trials filed by
David Sundy and Tim Sundy. (dgr) Modified on 10/2/2018 (dgr). (Entered:
10/02/2018)

10/01/2018

48

MOTION for Summary Judgment Exclusively Against Respondent Friendship
Pavilion Acquisition Company, LLC with Brief In Support by David Sundy, Tim
Sundy. (Attachments: # 1 Brief In Support of Motion for Summary Judgment)(dgr)
—Please refer to http://www.gand.uscourts.gov to obtain the Notice to Respond to
Summary Judgment Motion form contained on the Court's website.— Modified on
10/2/2018 (dgr). (Entered: 10/02/2018)___________________________________

A0018

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 7 of 9
10/01/2018

42

MOTION Reopen Discovery by David Sundy and Tim Sundy. (dgr) (Entered:
10/02/2018)

10/01/2018

50

MOTION for Notice to Plaintiff of 21 Days to Amend the Complaint by David Sundy
and Tim Sundy. (dgr) (Entered: 10/02/2018)

10/01/2018

11 MOTION for Leave to File a Late Objection to Respondents' 36.37.41 by David
Sundy and Tim Sundy. (dgr) (Entered: 10/02/2018)

10/03/2018

12 Summons Issued as to Christopher Carr and Brenda Weaver. (Attachments: # 1
Summons Christopher M, Canj(dgr) (Entered: 10/03/2018)

10/03/2018

53

MOTION for Order to Show Cause to be Issued to Respondents Charles Baker, Lisa
Cook, Brenda Brady and Nova Casualty Company by Nova-Lee Graber, David
Sundy, Tim Sundy. (Attachments: #1 Exhibit III)(dgr) (Entered: 10/03/2018)

10/10/2018

54

RESPONSE in Opposition re 50 MOTION for Notice to Plaintiff of 21 Days to
Amend the Complaint filed by Nova Casualty Company. (Woodward, Karen)
(Entered: 10/10/2018)

10/10/2018

55

RESPONSE in Opposition re 49 MOTION Reopen Discovery, 22 MOTION for
Summary Judgment filed by Nova Casualty Company. (Woodward, Karen) (Entered:
10/10/2018)
MOTION for Leave to Dismiss with Prejudice Petitioners' Claims Against Specific
Respondents Georgia Department of Transportation, Arsenal Real Estate Fund II—IDF,
L.P., Gary Picone, Thomas Ling, Michael Weinstein, Bonnie Oliver, Brenda Weaver,
Richard T. Winegarden, G. Grant Brantley, Clint G. Bearden, and Jay W. Cook by
Nova-Lee Graber, David Sundy, Tim Sundy. (dgr) (Entered: 10/12/2018)

10/11/2018

10/12/2018

66 RESPONSE in Opposition re 42 MOTION Reopen Discovery, 22 MOTION for

Summary Judgment filed by Charles Baker, Brenda Brady, Lisa Cook. (Stewart, J.)
(Entered: 10/12/2018)
RESPONSE in Opposition re 52 MOTION for Notice to Plaintiff of 21 Days to
Amend the Complaint filed by Charles Baker, Brenda Brady, Lisa Cook. (Stewart, J.)
(Entered: 10/12/2018)

10/12/2018

52

10/12/2018

62 RESPONSE in Opposition re 51 MOTION for Leave to File a Late Objection to

Respondents' 36.37.41 .53 MOTION for Order, 42 MOTION Reopen Discovery
filed by Charles Baker, Brenda Brady, Lisa Cook. (Stewart, J.) (Entered: 10/12/2018)

10/15/2018

61 RESPONSE re 42 MOTION Reopen Discovery filed by Clint G. Bearden, G. Grant
Brantley, Christopher Carr, Martha C. Christian, C. Andrew Fuller, Georgia
Department of Transportation, Bonnie Oliver, Jacques "Jack&quot Partain, Brenda
Weaver, Richard T. Winegarden. (Peters, William) (Entered: 10/15/2018)

10/15/2018

62

NOTICE of Appearance by Robert C. Khayat, Jr on behalf of Friendship Pavilion
Acquisition Company, LLC (Khayat, Robert) (Entered: 10/15/2018)

10/15/2018

62 MOTION to Set Aside Default Or, In the Alternative, for Extension of Time to

Respond to Complaint and Memorandum ofLaw in Support by Friendship Pavilion
Acquisition Company, LLC. (Attachments: # 1 Exhibit A: Declaration of Michelle
McCarthy)(Khayat, Robert). Added MOTION for Extension of Time to File Answer
on 10/16/2018 (ddm). (Entered: 10/15/2018)

10/19/2018

64 MOTION TO DISMISS FOR FAILURE TO STATE A CLAIM with Brief In Support
by Brenda Brady, Lisa Cook. (Attachments: # 1 Brief, # 2 Affidavit)(Stewart, J.)
(Entered: 10/19/2018)

10/22/2018

65, MOTION to Dismiss Petitioners' Claims against Respondents C. Carr, A. Fuller, and
M. Christian by Nova-Lee Graber, David Sundy, Tim Sundy. (Attachments: # i
Brief)(rsg) (Entered: 10/22/2018)

10/23/2018

66 MOTION for Leave for Consent Agreement and to File Friendship Pavilion

Acquisition Company, LLC's Response to Complaint with Brief In Support by
Nova-Lee Graber, David Sundy, Tim Sundy. (Attachments: # 1 Brief, # 2 Consent
Agreement, # 3 Text of Proposed Order)(rsg) (Entered: 10/23/2018)____________

A0019

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 8 of 9
10/24/2018

62 ORDER granting 66 Motion for Extension of Time to Answer. Friendship Pavilion

Acquisition Company, LLC Answer due 11/2/2018. Signed by Judge Steve C. Jones
on 10/24/2018. (rjs) (Entered: 10/24/2018)

10/24/2018

Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy and Tim Sundy re
67 Order, (ijs) (Entered: 10/24/2018)

10/25/2018

Submission of 53 MOTION for Order to District Judge Steve C. Jones, (jkl) (Entered:
10/25/2018)

11/01/2018

68

REPLY to
,60 , and 52 Response to Motion re 50 MOTION for Notice to Plaintiff
of 21 Days to Amend the Complaint, 51 MOTION for Leave to File a Late Objection
to Respondents' 36.37.41 , and 42 MOTION Reopen Discovery filed by Nova-Lee
Graber, David Sundy, Tim Sundy. (dgr) (Entered: 11/01/2018)

11/02/2018

62 MOTION to Dismiss with Brief In Support by Friendship Pavilion Acquisition

Company, LLC. (Attachments: # 1 Brief, # 2 Exhibit 1 )(Khayat, Robert) (Entered:
11/02/2018)

11/02/2018

70

11/02/2018

21 MOTION to Stay by Friendship Pavilion Acquisition Company, LLC. (Attachments: #

ANSWER to 1 COMPLAINT by Friendship Pavilion Acquisition Company,
LLC.(Khayat, Robert) Please visit our website at http://www.gand.uscourts.gov to
obtain Pretrial Instructions. (Entered: 11/02/2018)
I Text of Proposed Order)(Khayat, Robert) (Entered: 11/02/2018)

11/13/2018

22 RESPONSE in Opposition re 64 MOTION TO DISMISS FOR FAILURE TO STATE
A CLAIM filed by Nova-Lee Graber, David Sundy, Tim Sundy. (dgr) (Entered:
11/14/2018)

11/13/2018

H RESPONSE in Opposition re 62 MOTION to Dismiss filed by Nova-Lee Graber,
David Sundy, Tim Sundy. (dgr) (Entered: 11/14/2018)

11/13/2018

24 MOTION for Leave to File Petitioner's Response to 64 with Citation of Authorities
Out of Time with Brief In Support by Nova-Lee Graber, David Sundy, Tim Sundy.
(Attachments: # 1 Brief in Support)(dgr) (Entered: 11/14/2018)

11/13/2018

25. MOTION for Clerks Entry of Default Against Defendant Friendship Pavilion

Acquisition Company, LLC by Nova-Lee Graber, David Sundy, Tim Sundy. (dgr)
(Entered: 11/14/2018)

11/19/2018

26 RESPONSE in Opposition re 2Q 21 MOTION to Stay filed by Nova-Lee Graber,
David Sundy, Tim Sundy. (dgr) (Entered: 11/20/2018)

11/21/2018

22 REPLY to Response to Motion re 64 MOTION TO DISMISS FOR FAILURE TO
STATE A CLAIM filed by Charles Baker, Brenda Brady, Lisa Cook. (Stewart, J.)
(Entered: 11/21/2018)

11/27/2018

28. REPLY BRIEF re 62 MOTION to Dismiss filed by Friendship Pavilion Acquisition
Company, LLC. (Attachments: # 1 Exhibit 1: November 26, 2018 Hearing
Transcript)(Khayat, Robert) (Entered: 11/27/2018)

11/27/2018

22 RESPONSE in Opposition re 25. MOTION for Clerks Entry of Default filed by
Friendship Pavilion Acquisition Company, LLC. (Khayat, Robert) (Entered:
11/27/2018)

11/29/2018

SG MOTION for Summary Judgment with Brief In Support by David Sundy, Tim Sundy.
(Attachments: # i Brief, # 2 Text of Proposed Order)(rsg) —Please refer to
http://www.gand.uscourts.gov to obtain the Notice to Respond to Summary Judgment
Motion form contained on the Court's website.— (Entered: 11/29/2018)

12/03/2018

81 REPLY BRIEF re 2i MOTION to Stay filed by Friendship Pavilion Acquisition
Company, LLC. (Khayat, Robert) (Entered: 12/03/2018)

12/12/2018

82 NOTICE Of Filing Violations of FRCP Rule 5 by Defendant Friendship Pavilion

Acquisition Company, LLC by Nova-Lee Graber, David Sundy, Tim Sundy (dgr)
(Entered: 12/13/2018)

12/17/2018

S3. MOTION for Hearing re IS MOTION to Dismiss , £4 MOTION TO DISMISS FOR
FAILURE TO STATE A CLAIM with Brief In Support by Charles Baker, Brenda

A0020

Case: 2:18-cv-00112-SCJ As of: 01/12/2019 01:17 PM EST 9 of 9
Brady, Lisa Cook. (Attachments: # 1 Brief)(Stewart, J.) (Entered: 12/17/2018)
12/18/2018
12/18/2018
12/19/2018

84

RESPONSE re 82 Notice of Filing filed by Friendship Pavilion Acquisition Company,
LLC. (Khayat, Robert) (Entered: 12/18/2018)
MOTION for Hearing re 69 MOTION to Dismiss by Friendship Pavilion Acquisition
Company, LLC. (Khayat, Robert) (Entered: 12/18/2018)

86 MOTION for Hearing re 9 MOTION to Dismiss by Nova Casualty Company.
(Woodward, Karen) (Entered: 12/19/2018)

12/20/2018

NOTICE of Hearing on Motion re: Motion Hearing set for all pending motions on
January 23, 2019 at 9:30 AM in GAIN Courtroom 303 before Judge Steve C. Jones,
(rjs) (Entered: 12/20/2018)

12/20/2018

DOCKET ORDER: The motions for hearing (Doc. Nos. £3 , £5 , and £6 ) are
GRANTED. Ruled on by Judge Steve C. Jones on 12/20/2018 and entered as directed
by Chambers, (rjs) (Entered: 12/20/2018)

12/20/2018

Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy and Tim Sundy re
Notice of Hearing on Motion and Docket Order, (rjs) (Entered: 12/20/2018)

12/20/2018

£2 RESPONSE in Opposition re £Q MOTION for Summary Judgment filed by Friendship
Pavilion Acquisition Company, LLC. (Khayat, Robert) (Entered: 12/20/2018)

12/31/2018

8£ MOTION to Vacate the Order on Motion for December 20, 2018 Hearing on Motions,
with Brief In Support by David Sundy, Tim Sundy. (Attachments: # I Memorandum in
Support, # 2 Exhibit F, # 3 Text of Proposed Order)(rsg) (Entered: 12/31/2018)

01/03/2019

S2 ORDER denying ££ Petitioners' Motion to Vacate the December 20, 2018 order

granting hearing. The Court also provides clarification that all pending motions (filed
by both Plaintiffs and Defendants) have been set for hearing, per the Clerk's Notice of
Hearing entry of December 20, 2018. The Court has reviewed the voluminous docket
and finds that a hearing is necessary to aid in the Court's ability to fully understand the
nature of the parties' arguments. Signed by Judge Steve C. Jones on 1/3/2019. (rjs)
(Entered: 01/03/2019)

01/03/2019

Clerk's Certificate of Mailing as to Nova-Lee Graber, David Sundy, Tim Sundy re £2
Order, (rjs) (Entered: 01/03/2019)

A0021

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC
Plaintiff,
v.

Civil Action Case No.:
2015CV001366

Mediterranean Dining Group Inc.,
Tim Sundy and David Sundy
Defendants,
v.
ARSENAL REAL ESTATE FUND II-IDF, LP;
Gary Picone; Thomas Ling; and, Michael Weinstein
Defendants in Counterclaim

NOTICE TO THE ATTORNEY GENERAL PURSUANT TO
O.C.G.A. § 9-10-2 BYTIM SUNDY
TO:

The Attorney General of the State of Georgia
Christopher Carr
40 Capitol Square SW
Atlanta, GA 30334

Certified Mail: 70141820000072106735
Pro se Tim Sundy, in special appearance, without waiver of appeal, without waiver of any
rights, privileges and immunities, submits this NOTICE to the Attorney General of the State of
Georgia, pursuant to O.C.G.A. § 9-10-2. A Rule Nisi hearing has been scheduled for 2 March
2020 at 9:30 A.M., Hall County Courthouse, Gainesville, Georgia as to the above captioned case.
The Defendant has previous unwavering matters in which Judge Martha C. Christian in her official
capacity is a party.

Respectfully submitted 21 February 2020.

Tim Sundy
c/o 227 Sandy Springs Place, Ste. D-465
Sandy Springs, GA 30328

A0022

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC
Plaintiff,
v.

Civil Action Case No.:
2015CV001366

Mediterranean Dining Group Inc.,
Tim Sundy and David Sundy
Defendants,
v.
ARSENAL REAL ESTATE FUND II-IDF, LP;
Gary Picone; Thomas Ling; and, Michael Weinstein
Defendants in Counterclaim

CERTIFICATE OF SERVICE
The undersigned hereby certifies that an accurate copy of NOTICE TO THE ATTORNEY
GENERAL PURSUANT TO O.C.G.A. § 9-10-2 BY TIM SUNDY was sent by U.S. mail to the
following counsel of record in this action:
Robert C. Khayat, Jr., The Khayat Law Firm, 75 Fourteenth Street, Ste. 2750 , Atlanta, GA 30309
This 21 February 2021.
L
Tim Sundy, without prejudice
c/o 227 Sandy Sprin^sdPlace, Suite D-465
Sandy Springs, GA 30328

A0023

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA

Friendship Pavilion Acquisitions Co., LLC
Plaintiff

)

Civil Action
No. 2015- CV-1366B
)

vs.
Mediterranean Dining Group, Inc.,
David Sundy and Tim Sundy,
Defendants
vs.

)

)

Michael Weinstein,
Arsenal Real Estate Fund II,
Thomas Ling,
Gary Picone,
Defendants in Counterclaim

)
)
>

ORDER ON DEFENDANTS’ MOTION TO SET ASIDE
Procedure
On December 3,2018, a Final Judgment was entered in this case.
On December 13, 2018, Defendants, Tim Sundy and David Sundy (Defendants) filed a pleading titled
“Motion Pursuant to O.C.G.A. 9-1 l-60(d)(2)(3) To Set Aside the December 3,2018 Void Final Judgment
for Fraud Upon the Court and/or Non-Amendable Effects.”
Then on January 2, 2019, Defendant, Tim Sundy filed a Notice of Appeal to the Supreme Court of
Georgia.
Also, on January 2, 2019, Defendant, Tim Sundy filed an Application for Appeal Pursuant to
O.C.G.A. Section 5-6-35 in the Supreme Court of Georgia. (S19602).
On January 15, 2019, Plaintiff filed a Response to Defendants’ Motion to Set Aside.
On January 31, 2019, the Supreme Court transferred the Application to the Court of Appeals of
Georgia (A19D0345).
On February 11, 2019, this Court entered an Order staying the case until determination of the notice of
appeal.
Page 1 of 12

A0024

On February 11, 2019, this Court entered an Order setting a hearing on Defendant Tim Sundy’s
Motion for Leave to Proceed in Forma Pauperis, which Motion was filed on February 8, 2019 and was in
regard to the Notice of Appeal.
On March 7, 2019, a hearing was held on Defendant’s Motion to Proceed in Forma Pauperis. Even
though he received proper and legal notice, Mr. Tim Sundy did not appear. On March 13, 2019, an Order
was entered denying Defendant’s Motion for Leave to Proceed in Forma Pauperis.
On March 15,2019, The Court of Appeals dismissed Defendant’s application for discretionary review
for lack ofjurisdiction. Defendant, Tim Sundy, filed a Petition for Certiorari, which was denied by the
Supreme Court of Georgia on November 4,2019. (S19C0943).
On January 28,2020, a Notice of Show Cause Hearing Regarding Itemized Appeal Costs was set for
March 2, 2020. Defendant was given proper and legal notice of the hearing but did not appear.
On March 9, 2020, an Order Dismissing Notice of Appeal Pursuant to O.C.G.A. Section 5-6-48(c) was
entered and in that Order the stay was lifted.
In each enumeration raised by Defendants in this Motion, Defendants claim “[t]he fraudulent or void
final Judgment and the closing of this case did not cure the non-amendable defect which appears upon the
face of the record or pleadings.” They cite O.C.G.A Section 9-11 -60(d)(2)(3) and ask that the judgment
be set aside for “fraud upon the court and/or non-amendable effects.”
O.C.G.A. Section 9-1 l-60(d) provides:
(d) Motion to set aside. A motion to set aside may be brought to set aside a judgment
based upon:
(1) Lack of jurisdiction over the person or the subject matter;
(2) Fraud, accident, or mistake or the acts of the adverse party unmixed with the
negligence or fault of the movant; or
(3) A nonamendable defect which appears upon the face of the record or pleadings.
Under this paragraph, it is not sufficient that the complaint or other pleading fails to state
a claim upon which relief can be granted, but the pleadings must affirmatively show no
claim in fact existed.
I. Claims of Fraud, Accident or Mistake
“The overreaching principle of seeking relief under O.C.G.A. § 9-11-60(d)(2) is that it may be granted
only where the grounds are unmixed with the negligence or fault of the movant.” Winnersville Roofing
Co. v. Coddington, 283 Ga. App. 95 at 97 (2006). See also, Smith v. Mann, 200 Ga. App. 701,702
(1991). After the first hearing in this case neither of the Defendants attended pretrial hearings, the
calendar call or the trial. They have objected to just about every ruling made by this court and every
order entered by this court. Moreover, they were given many notices by the Court in written orders that if
they did not attend, the Court could rule against them. Specifically, in the Notice Of Pretrial Conference
filed on September 18, 2018, they were ordered to appear and “should they not appear or not comply with
Page 2 of 12

A0025

any provision of this Order, then all of their pleadings may be dismissed by the Court and a default
judgment entered against said patty or parties.” In an Order entered on November 8, 2018, they were
ordered to attend a calendar call on November 26, 2018 and announce, or their “answer and counterclaim
and all claims will be dismissed for want of prosecution.” The order further provided that “[a]ll claims of
Plaintiff and /or any Defendants’ Counterclaim and any other claims remaining in this case shall be tried
beginning on December 3, 2018.”
Therefore, any enumeration that alleges fraud, accident or mistake is not unmixed with the negligence
or fault of Defendants and is not cause for setting aside the final judgment.
2. Nonamendable Defect Which Appears on the Record or Pleadings
Defendants have the burden of showing that because of a nonamendable defect that appears on the
face of the record or pleadings, the judgment entered in this case was void.
In their Motion to Set Aside, Defendants enumerate several errors. The Court will address each
enumeration below.

A. There is a nonamendable defect which appears upon the face of the record or pleadings
because “Defendants were not afforded equal protection of the law for their 16 March 2018
Brown v. Johnson petition.”
It is important to note what happened in the case prior to Defendants filing the March 16, 2018
document.
When appointed to hear this case in an Order entered on October 6, 2016, this Court began an attempt
to unravel the nature of the case, the pleadings, what persons were parties to the case and the claims of
those parties. The case was complicated by the fact that it had been removed to and then remanded from
Federal Court and documents filed by the parties in Federal Court had not been filed in this record. After
obtaining and reviewing the pleadings, the Court determined that the best course of action was to set a
status conference and hearing on pending motions. The Court entered a Rule Nisi order on November 8,
2016 ordering the parties to attend a hearing set for December 8, 2016. The Order directed all persons
named in the case caption at that time to attend and address several matters. One of the issues was which
persons were proper parties in the case. After being served with this Order, Defendants began what
would become a pattern in the case. On December 2,2016, they filed a “Joint Objection”, in which they
objected to the Court having a hearing at all and stated that the “Rule Nisi gives the appearance of bias
and exhibits the malpractice, oppression and tyrannical partiality of the Court in its effort to get Judge
Fuller out of a hole, dump the Sundys into the appellate court and then wash their hands of the matter.”
The Court held the hearing on December 8, 2016. Tim Sundy appeared and argued, but neither David
Sundy nor the attorney for Defendant Mediterranean Dining Group appeared.
On December 22,2016, this Court entered several orders on the issues that were addressed at the
December 8, 2016 hearing. On December 30,2016, Defendants filed another “Joint Objection”. Again,
Defendants objected to this Court holding any hearing and not ruling in their favor immediately. They

Page 3 of 12

A0026

specifically objected to the Court’s Rule Nisi entered on December 22, which ordered parties to appear on
January 11, 2017 for a hearing on the Motions for Summary Judgment and other issues.
On January 5, 2017, Defendant David Sundy filed a “Notice of Filing Brown v. Johnson Action by
David Sundy” and filed an amendment to that notice on January 7, 2017. In the Notice, David Sundy
stated that he had filed a separate civil action in Hall County Superior Court naming this Judge, Judge
Andrew Fuller, and Charles Baker, Clerk of Superior Court as parties (C.A. No. 2017CV000031 A). On
January 10, 2017, Defendants also filed a Joint Motion for Involuntary Disqualification of Martha C.
Christian. The motion to recuse was assigned to another Judge to determine as provided by U.S.C.R.
25,3. and the hearing set for January 11, 2017, was continued. On March 21,2017, an Order denying the
motion to recuse was entered.
The record reflects that after the denial of the motion to recuse, Defendants continued to file objections
to this Court’s rulings, both in this case and with the Supreme Court of Georgia and the Court of Appeals.
Every time this Court set a hearing, Defendants refused to attend. Defendants took the position that this
Court was disqualified from hearing the case because it lost jurisdiction for not ruling on certain motions
within the 90 days required by O.C.G.A. Section 15-6-21. On May 3, 2017, Defendants filed a “Joint
Objection” raising this issue. This Court entered an Order regarding the objection on May 18, 2017.
On August 16, 2017, Defendants filed another “Objection” claiming that this Judge was disqualified
from hearing the case. This document was filed at 12:22 p.m. before a motion hearing set in the case
which began at 1:30 p.m. on that date.
On October 17, 2017, the Court entered several Orders which addressed the various issues raised by
pending motions and in each of those Orders the Court again addressed Defendants’ claim that this Court
was disqualified and had no jurisdiction to hear the case. On November 29, 2017, Defendants filed
another “Joint Objection” to the Court’s most recent order. In that objection, Defendants moved for “the
involuntary [disqualification of Martha C. Christian from the above entitled matter for lack of
jurisdiction and venue.”
Undeterred by the Court denying their Motions, Defendants filed the March 16, 2018 document, titled
“Motion: Verified Petition for an Order in the Nature of Writ of Injunction Pursuant to Brown v. Johnson
and Motion for Declaratory Judgment.” This document was in reality another effort to remove this Judge
from the case. In this document, Defendants attempted to add new parties and new claims totally
unrelated to the original claims in this case. In that document, they sought to bring in as parties: this
Judge; the Clerk of Superior Court; Judge Jack Partain; Judge Brenda Weaver; Chris Carr, the Attorney
General for the State of Georgia; and “unknown names, Hall County’s liability carrier, c/o Peggy
Kanaday.” On May 3, 2018, this Court entered an Order denying Defendants’ attempt to add new
unrelated claims and parties to this case.
First of all, a mandamus is not a proper way to seek to remove a judge from a case. Gray v.
Manis, 822 Ga. 336,337 (2007). Furthermore, mandamus “is not an available remedy to require [a
judge] to perform h[er] judicial function in a manner different from the way [s]he has performed it.”
Kappelmeier v. lannazzone, 279 Ga. 131, 131-132 (2005). Nevertheless, in this case, the Court did not
reach the merits of Defendants’ claims raised in the attempt to file a mandamus. The Court ruled
pursuant to O.C.G.A. Section 9-11-15(d) that the “Motion” was an attempt to add a supplemental
Page 4 of 12

A0027

pleading. Being a supplemental pleading, it had no effect until it was allowed. Kelly v. Pierce Roofing,
Inc., 220 Ga. App. 391, 393 (1996). The Court ruled further that Defendants could not add parties to this
case. O.C.G.A. Section 9-11-21; Valdosta Hotel Properties, LLC v. White, 278 Ga. App. 206 (2006).
In Brown v. Johnson, 251 Ga. 436 (1983), cited by Defendants, the Supreme Court of Georgia held
that a petition for mandamus “may be filed in the appropriate superior court.” It then held that a superior
court named as a respondent would disqualify regarding the petition and another superior court judge
would be appointed to hear and determine the matter. At 437. This case and the cases that have
followed, do not stand for the proposition that a petition for mandamus can be filed against a judge in a
pending case. If the request to add parties then goes to a new judge and that judge allows parties to be
added, it would be tantamount to filing a motion to recuse without following U.S.C.R 25, as the sitting
judge would have to step down, having been added as a party. This would make no logical sense, as such
a petition could be filed in every pending case to delay the proceeding, to attempt to disqualify the sitting
judge and to attempt to judge shop. This is why U.S.C.R 25.3 gives the sitting judge the authority to first
determine the timeliness of the motion to recuse and the legal sufficiency of the affidavit and to make a
determination whether recusal would be warranted. Also, U.S.C.R 25.2 provides that “[a]negations
consisting of bare conclusions and opinions shall not be legally sufficient to support the motion or
warrant further proceedings.” “A recusal motion supported by an affidavit containing completely
unsubstantiated allegations of judicial bias cannot be used as a tool for delay and to judge shop.” Gray v.
Manis, 282 Ga. 336 at 337(2007).
The Court’s ruling on this issue was not in error and therefore, there is no nonamendable defect
appearing on the face of the record or pleadings.
B. There is a nonamendable defect which appears upon the face of the record or pleadings for
Defendants’ claim of removal from office for violations under O.C.G.A. Section 15-621(b)(c)(d).
Again, as stated above, this argument has been made many times in this case and each time it was
raised, the Court addressed the issue. While O.C.G.A. Section 15-6-21(b) does require a judge to rule on
all matters submitted to the Court within 90 days, the remedy if a judge does not so rule is not that the
Court loses jurisdiction. See Cobb County v. Robertson, 314 Ga. App 455 (2012); Hawkins v Blair, 334
Ga. app. 898 (2015).
Therefore, this enumeration has no merit.
C.

The final judgment was fraudulent or void for the nonamendable defect which appears
upon the face of the record or pleadings for Defendants’ claim of permissive counterclaims
with a separate trial.

Defendants’ assert that their counterclaim was “permissive” as defined in O.C.G.A. Section 9-1 l-13(b)
and that they were entitled to a separate trial. However, a review of the counterclaim set forth in the
document titled “AMENDED COUNTERCLAIM AND THIRD-PARTY PLAINTIFFS/INTERVENOR
DEFENDANTS/GUARANTORS COMPLAINT”, filed on June 12, 2017, shows that Defendants’
counterclaim was not permissive. See Steve A. Martin Agency, Inc. v. Planters FIRSTCorp., 297 Ga.
App. 780, 782-784 (2009).
Page 5 of 12

A0028

In any event, the record shows Defendants were ordered to appear on two separate dates for a pretrial
conference but chose not to attend either. They could have sought a separate or bifurcated trial at that
time but chose not to appear at the pretrial conference or present a proposed pretrial order. In addition,
they were given proper and legal notice of a calendar call and they were ordered to appear. In the order
setting the calendar call for November 26, 2018, Defendants were given notice that appearance was
mandatory and if a party did not appear and announce, then his complaint or answer and counterclaim and
all claims would be dismissed for want of prosecution. Defendants chose not to appear. Therefore, on
November 26, 2018, the Court dismissed Defendants’ counterclaims and all claims against Plaintiff and
Defendants in Counterclaim. The Order of dismissal was entered on December 3, 2018, nunc pro tunc,
November 26,2018. Thus, there were no counterclaims pending on December 3, 2018.
Finally, the trial of the case was set f«r December 3, 2018. Defendants were given proper and legal
notice of the trial. They chose not to appear for trial.

D.. The final judgment was fraudulent or void because of the nonamendable defect which
appears upon the face of the record or pleadings for Defendants’ claim of third-party status
granted by federal court.
This argument has no merit. Defendants were recognized as intervenors in this case in an Order
entered on December 22, 2016. The Motion to Intervene filed by Defendants in Federal Court after
removal, was never filed in this court, so this Court has no idea of its contents. Defendants were put on
notice by order of this court entered on April 11, 2017 that the parties were relying on documents that
were not filed in this court. They were given ample opportunity to have those documents made part of the
record in this case. Defendants chose not to file the Motion to Intervene. They did file a copy of the
Federal Court order allowing them to intervene as Defendants in the Federal Court case. This order
simply stated that the Motion to Intervene was granted, however, since the Motion is not in this file, this
Court has no idea what the Federal Court intended with the order other than to allow Defendants to be
intervenor defendants. Also, there is nothing in the record in this case that shows that they were allowed
to add parties or new claims when the action was in Federal Court.
Furthermore, this Court did not “summarily ignore” the Federal Court order. El Chico Rests. V
Transp. Ins. Co., 235 Ga App 427, 429 (1998). The record shows that this Court held a hearing on
December 8, 2016 during which the Court considered the Federal Court order. Mr. Tim Sundy was
present at this hearing, Mr. David Sundy did not appear. At the hearing, the Court took judicial notice of
the Federal Court Order. The Court stated:
I’ve read the case that Mr. Sundy cited, and it appeared that the Court can reconsider the
issue of the intervention but that—and I’ve looked at the intervenor statute, and it appears
that this is a permissive intervention, and the Court is going to allow it. I don’t hear your
objection, and so I’m going to allow David Sundy and Tim Sundy and find they are
proper intervenors in the Friendship Pavilion case. So that’s really not an issue. (12/8/16
Tr. pg. 18).
Plaintiffs attorney responded:
Page 6 of 12

A0029

4

Yeah. The only thing I would just say, your Honor, is we just reserve any rights that we
have as far as them being intervenors or defendants or counterclaim plaintiffs. But as far
as being into the case, we do not object. (12/8/16 Tr. pg. 18).
On October 30, 2017, this court entered an order which addressed Defendants’ status. The court ruled
that Defendants’ “AMENDED COUNTERCLAIM AND THIRD-PARTY PLAINTIFFS/INTERVENOR
DEFENDANTS/GUARANTORS COMPLAINT” was deemed to be a request to add additional parties as
Defendants in Counterclaim. The Court allowed the Amendment and the addition of four parties as
Defendants in Counterclaim.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.

E. The final judgment was fraudulent or void because of the nonamendable defect for
Defendants’ claim of adding parties as a matter of law.
This argument has no merit. The record shows that Defendants were allowed to add parties, as noted in
paragraph D. above.
F. There is a nonamendable defect because Defendants were deprived of their right to default
in the state court proceedings.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
G. The final judgment was fraudulent or void because of the nonamendable defect for
Defendants’ claim of Tim Sundy’s Lis Pendens remaining pending throughout the duration
of an appeal.
The record and pleadings reflect that the ruling by the Court on this issue was not in error. This
enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
H. The final judgment is fraudulent or void because of a nonamendable defect for Defendants’
claim of Plaintiff FPAC currently being in default in Federal Court and having admitted
that Plaintiff is in default in Federal Court.
Defendants offer no admissible evidence to support this claim. They allege that there was a
pending case in Federal Court. This record shows that on November 14, 2018, Defendants filed
“Intervenors’ Standing Objections to all Void Orders and Proceedings and Notice to the Court of
Pending Matters in Federal Court.” This document was filed after they had notice of a calendar call
and hearing set in this case for November 26, 2018 and atrial set for December 3, 2018. In this
“Objection” Defendants complained that because of this Court’s improper procedure and rulings, they
were forced to file a lawsuit in the United State District Court for the Norther District of Georgia.
They objected “to the State court for not having separate trial and to disqualified Judge Martha
Christian for ongoing schemes while federal action is construed as a separate trial.” A document they
Page 7 of 12

A0030

document they attached to their “Objection” states that the case in Federal Court was filed on July 10,
2018. Defendants’ bare allegations in their “Objection” are not evidence.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.

I.

The final judgment was fraudulent or void because of the nonamendable defect with
Plaintiff presenting back rent owed, yet Plaintiff also presenting testimony/evidence to the
Court of road construction and receipt of reduced rent payments, with the Court willfully
failing to recognize and consider a part of the lease.

Defendants are really arguing a mistake or fraud on the court under 9-11-60(d)(2). Their failure to
attend trial and present evidence was their neglect and fault and the judgment cannot be set aside on
such a ground.
This claim is not a nonamendable defect that appears on the face of the record or pleadings.

w

J. The final judgment was fraudulent or void because of the nonamendable defect with
Plaintiff presenting back rent owed while making misrepresentations to the Court about the
nature of Defendants’ reduced rent payments.
Defendants have presented no affidavits, depositions, sworn testimony or other admissible evidence
that proves Plaintiff’s witness at trial testified falsely. Defendants had proper and legal notice to attend
trial and chose not to do so, therefore they waived their right to present evidence. Defendants will not be
allowed to use O.C.G.A. Section 9-11-60 to attack the credibility of witnesses at atrial they chose not to
attend. Defendants are really arguing a mistake or fraud on the court under 9-1 l-60(d)(2). Their failure
to attend trial and present evidence was their neglect and fault and the judgment cannot be set aside on
such a ground.
This claim is not a nonamendable defect that appears on the face of the record or pleadings.
K. The final judgment was fraudulent or void because of a nonamendable defect for
Defendants’ claim of not being protected under Art. 1, & 1, para. 2 of Georgia’s
Constitution. Defendants were not afforded equal protection in the filing of documents with
the clerk of court.
Defendants claim they were “not afforded equal protection in the filing of documents with the
Clerk of Court, in the application of existing law to Defendants’ claims, in the protection of
Defendants’ constitutional and statutory rights, and even the Attorney General failed his duties and
joined in the commissions of crimes against Defendants with Judge Christian and co-conspirators.”
First, the Court may only look to the record and pleadings in this case. Again, Defendants have not
presented any evidence to support this Motion. Generally, Defendants claim that they were not
allowed to file documents without using the U.S. mail. They also claim that the Clerk of Court
withheld documents from the record “for purposes of fraud upon the court.” and that the Clerk of
Court “intentionally and repeatedly tampers with citizens’ papers in every case, and the record of
every case.”
Page 8 of 12

A0031

The specific allegations made in the Motion are that a document that is shown marked filed on
October 23, 2018, titled “Intervenors’ Objection to the Court’s 18 September Orders” was withheld
from the docket/record for the purpose of fraud upon the court; and a document shown as filed on
November 14, 2018, titled “Intervenors’ Standing Objections to All Void Orders, Proceedings and
Notice to the Court of Pending Matters in Federal Court”, was withheld from the docket/record by the
Clerk for almost two weeks. There is also an allegation about a missing pleading dated December 20,
2016.
l.

The October 20. 2016 document.

On May 17, 2017, Defendant Tim Sundy filed an affidavit regarding a “Joint Objection” he
alleged was delivered to the Clerk of Court on December 20, 2016. In his affidavit he alleged that
when he appeared at the Clerk’s office in May of 2017 and asked for a certified copy of the
document, the Clerk could not find the document in the file. He stated that “the missing document is
causing Affiant as well as other parties to be deprived of a full and complete record in circumstances
where Affiant appeals his case or redresses matters in a federal court.”
On June 5, 2017, the Clerk of Court for Hall County Superior Court filed Civil Action No. 2017
CV 1125 pursuant to O.C.G.A. Section 24-11-2 seeking to establish the December 20, 2016
“Objection” as a lost document. On July 10, 2018, an order was entered directing the Clerk to restore
the December 20, 2016 document to the file in this case. The document was then filed of record in
this case as of December 20, 2016.
The December 20, 2016 “Objection”, shows that it was a pleading filed by Defendants to assert
that Plaintiff had waived its right to present evidence regarding the pending Motion for Summary
Judgment; that the court had no right to set a hearing or hear oral argument; and that they were
“entitled to a ruling on Summary Judgments) being issued without a hearing and entry as a matter of
law.” These issues had been raised prior to and were raised after this “Objection” was allegedly filed.
Prior to the December 8, 2016 hearing Defendants filed an ‘Objection” wherein they objected to a
summary Judgment hearing being held on December 8. They asserted the position that no party had
requested a hearing; that Plaintiffs had waived its right to present evidence on the Motion and that
and that they were entitled to a ruling on Summary Judgments(s) without a hearing and “entry as a
matter of law.” Considering the objection, the Court stated that since the Rule Nisi setting the hearing
did not give any notice regarding Motions of Summary Judgment, such Motions would not be heard
that day.
However, on December 8, the Court also held a status conference and the Court and parties
discussed setting a hearing on the Motions for Summary Judgment. A date for the hearing was
discussed and it was agreed that the hearing would take place on January 11, 2017. Mr. Tim Sundy
stated: “We’ll do the 11th, your Honor.”
On December 15, 2016, Defendant Tim Sundy filed an “Objection” regarding the December 8
hearing. While this “Objection” was also filed in another case pending in Hall County Superior
Court, it had this case number on it, so the Clerk also filed it in this case. In that Objection, he

Page 9 of 12

A0032

complained that the Court set a future Summary Judgment hearing for the non-moving parties who
“cannot present evidence.” He stated again that no party had requested a hearing.
On December 22, 2016, a Rule Nisi was entered setting January 11, 2017 as for a hearing on all
Motions, including Motions for Summary Judgment. On December 30, 2016, Defendants filed a
“Joint Objection”. In this document, defendants complained about the entry of the Rule Nisi and
stated that Plaintiff waived its right to present evidence. On January 10, 2017, Defendants filed a
“Joint Motion for Involuntary Disqualification of Martha C. Christian”. Therefore, the hearing set for
January 11, 2017 was continued.
On April 11, 2017, after Defendants’ motion to recuse was denied by another judge appointed to
hear it, this Court entered separate orders denying each motion for summary judgment. The motions
were decided without a hearing, as was requested by Defendants.
Therefore, while the December 20,2016 “Objection” was not shown on the docket as filed in this
case, until it was restored in July of 2018, the Court had been made aware of Defendants’ objections
in three other documents prior to the time the Court ruled on the merits of both Motions. Defendants
had their objections considered and no hearing was held, so they suffered no harm.
Additionally, while Defendants filed numerous appeals, all the appeals were dismissed. The
complaint about the appellate record being inaccurate has no merit because they could have filed a
request pursuant to O.C.G.A. Section 5-6-41(f) to seek to complete the record.
ii.

The October 23. 2018 document.

As for the October 23,2018 “Objection”, Defendants present no evidence that this document was
withheld from the docket. The record shows that on November 8, 2018, this Court entered an Order
regarding this Objection.
iii.

The November 14. 2018 document.

As for the November 14, 2018 “Standing Objection”, the record shows that on November 26,
2018, this court held a calendar call and hearing in the case. At the hearing, the Court put on the
record that “I have a document that was sent to the Clerk of Court, and it is in this case to be filed.”
The Court stated that she had “reviewed this document and to the extent that it again objects to this
Court’s jurisdiction, it is denied.” Regarding the document, the Court also stated:
“It makes no claim, it is simple a notice, as has been the pattern in that the Defendants,
David Sundy and Tim Sundy, file documents prior to the hearing and don’t show up for
the hearing. I am going to ask that this document be filed in the Clerk’s office in this
case and I will deem it filed as of the date that it was received, which apparently was
November 14th of this year.”
iv.

General equal protection claim.

As for Defendants’ general claim that they were denied equal protection, they have not pointed to
anything in this record to show that they were not allowed to file documents in person, nor have they

Page 10 of 12

A0033

submitted an affidavit setting forth evidence that the Sheriff or any person kept them from filing
documents in the Clerk’s office.
Some of the pleadings in this case show that Defendants have filed other cases in the Superior
Court of Hall County. So, the Court is aware that at one point, in Civil Action Case No. 2016 CV
000982 , filed by Tim Sundy, there was an Order entered by the Chief Judge of the Northeastern
Judicial Circuit which provided that “[p]rior to stamp filing this pleading or any other pleading
presented for filing in the above-captioned and numbered case by Tim Sundy, the judges of the
Northeastern Judicial Circuit determined that the undersigned would review any pleading presented
for filing by Tim Sundy in the above-captioned and numbered case or any other case pending in the
Superior Court of Hall County wherein Tim Sundy is a party.” The Judge stated it was “for the
purpose of allowing the court to determine whether a pleading presented for filing is a new case or
properly filed in an existing case.” The procedure implemented by the Chief Judge applied to Tim
Sundy and not David Sundy. Neither Defendant has shown that this procedure in any way kept them
from filing documents in this case and therefore, as discussed above, Defendants suffered no harm
from this procedure. This Order has not been filed in this case.
Even if this Court were to take judicial notice of an order in another case entered by another judge,
“ no person is free to abuse the courts by inundating them with frivolous suits which burden the
administration of the courts for no useful purpose.” In re Carter, 235 Ga. App. 551, 552 (1998). The
limitation imposed on Defendant Tim Sundy’s ability to immediately file documents in pending
litigation does not totally deprive Tim or David Sundy of meaningful access to the courts and is
reasonable under the circumstances. Smith v. Adamson, 226 Ga. App. 698, 670 (1997). A review of
the record in this case alone will reveal the numerous pleadings filed by Defendants which repeat the
same arguments and objections. Furthermore, Defendant Tim Sundy filed documents in Case No.
982 showing the caption of 982 but also having the file number for this case on it as “Companion
Civil Action Case No.: 2015-CV-I01366A”. The Clerk filed the 982 document in this case and then
Defendant David Sundy filed an objection to the Clerk filing the documents as marked and demanded
that the document be removed from the file. Likewise, Defendants filed a document showing the
caption of 1366, but also having the file number for 982 as “Related Civil Action Case No.
2106CV000982.” The record also shows repeated attempts to improperly appeal most of the Orders
of this Court; the filing of a motion to recuse this Court; the filing of emergency motions with the
Georgia Court of Appeals, the Supreme Court of Georgia and with the Attorney General for the State
of Georgia.
Again, no restriction on the filing of any documents in this case was imposed by this Court and
any restriction that may have been imposed by the Chief Judge did not influence Defendants’ access
to the Court in this case.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
L. The final judgment was fraudulent or void because of a nonamendable defect for
Defendants’ claim of standing their ground.
This claim is summed up by Defendants’ allegation that the Court has

Page 11 of 12

A0034

purposefully placed Defendants in an unconstitutional condition-if Defendants stand their
ground, Defendants lose; if Defendants acquiesce to the fraudulent activities of the Court
and its officers and to the fraud upon the court perpetrated by Plaintiff, Defendants lose.
Judge Christian has exercised defacto-powers by tyrannical partiality in a seizure of
jurisdiction when she is a disqualified Judge and the Court itself abdicated jurisdiction
over pro se Defendants and their claims.
Again, Defendants have repeatedly claimed in several pleadings throughout this case that this Judge is
disqualified from presiding on the case. Defendants have also filed “Objections” to just about every order
and every action this court has taken. In an Order entered on November 8,2018, the Court addressed
another “Objection” filed by Defendants. In that Order the Court stated:
This Court continues to have jurisdiction in this case, as it has ruled on more than one
occasion. However, Defendants proceed to ignore orders of this Court even though they
have been warned that their pleadings may be dismissed. If, as Defendants.. .claim, this
Court does not have jurisdiction, or if they complain that any other ruling by this
court... was in error, if they comply with Georgia law, they may have the right to appeal
when a final order is filed in this case.

Defendants thoroughly and repeatedly raised their objections which preserved their right to raise them
in an appeal of the final judgment in this case, but these objections did not excuse them from attending the
pretrial conference, the calendar call or the trial. David Sundy chose not to file an appeal at all. Tim
Sundy filed a notice of appeal and a petition for discretionary appeal. The discretionary appeal was
denied, and Tim Sundy abandoned the Notice of Appeal.
This enumeration is not a nonamendable defect that appears on the face of the record or pleadings.
Conclusion
Therefore, for all of the reasons stated above, Defendants’ Motion to Set Aside is DENIED.

SO ORDERED, this 26 day of May 2020

Martha C. Christian
Judge Hall County Superior Court
By Assignment

Page 12 of 12

A0035

■y.

*>

7 -<\

TV
V.o
IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA

^ TV
'vp
<D

\
\

c?

L

FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC,

d?

v>V\

Plaintiff,

\

v.
Civil Action No. 2015-CV-1366B
MEDITERRANEAN DINING GROUP,
INC., DAVID SUNDY AND TIM SUNDY,
Defendants .-

FINAL JUDGMENT
This action came before the court on December 3, 2018, with the Honorable Martha C.
Christian, presiding.
The issues having been duly heard in an evidentiary proceeding and a decision having
been duly rendered, for reasons-set-forth on the record by the Court:
The -Courf issues this Final Judgment'disposing of this case in its entirety as follows:
That the plaintiff Friendship Pavilion Acquisition Company recover of the defendants
Mediterranean Dining Group, Inc., Tim Sundy, and David Sundy, jointly and severally, the sum
of $394,617.47, with post-judgment interest thereon at the rate of percent as provided by law.
This sum is comprised of $188,485.90 in unpaid lease obligations and contractually specified
interest of $206,131.57.
Dated this 3rd day of December, 2018.

} i{ W/; ,r (2
The Honorable Martha C. Christian
Presiding
Judge Hall County Superior Court, by
Assignment

A0036

w

IN THE SUPERIOR COURT FOR THE COUNTY OF HALL
STATE OF GEORGIA

TIM SUNDY,
CIVIL ACTION FILE NUMBER:
2016CV-982B

PLAINTIFF,
VS.

C3

FRIENDSHIP PAVILION
ACQUISITION COMPANY,
LLC., ET AL.

CO
d -L-

ro
c=r»
C3>

r~
— rn
°c/i
:.u
cd

i> >-

DEFENDANTS.

rr,;

ORDER

I
i

C—
j>
C3

-T3

OO
Op"

CO

l._ CT‘.

CD

VO "i;:.

PP
CT

cn

V

On Friday, the 6th day of July, 2018, the Plaintiff in the above-captioned and numbered
case presented for filing with the Clerk of Court a pleading entitled Notice Of Dismissal By
Plaintiff Tim Sundy Pursuant To 9-1 l-41(a)(l)(A). This pleading was presented for filing with
the Clerk of Court by an individual identifying himself as Oliver Endsley.
Prior to stamp filing this pleading or any other pleading presented for filing in the
above-captioned and numbered case by Tim Sundy, the judges of the Northeastern Judicial
Circuit determined that the undersigned would review any pleading presented for filing by Tim
Sundy in the above-captioned and numbered case or any other case pending in the Superior Court
of Hall County wherein Tim Sundy is a party.1
Upon review of the pleading entitled Notice Of Dismissal By Plaintiff Tim Sundy
Pursuant to 9-11-41(a)(1)(A), IT IS ORDERED that the Clerk of Court file the same in Hall
County Superior Court Case Number 2016CV-982B with a stamp file date of July 6, 2018 at
10:52 a.m. Plaintiff Tim Sundy is ORDERED to provide a copy of this document to any party or
former party and those parties’ attorneys with an appropriate certificate of service.
By allowing this pleading to be filed, the undersigned makes no ruling concerning the
merits of the pleading. Any issues of any party concerning the merits of that pleading entitled

‘This judicial review prior to the filing of any pleading presented for filing by Tim Sundy
is primarily for the purpose of allowing the court to determine whether a pleading presented for
filing is a new case or properly filed in an existing case.

A0037

Notice Of Dismissal By Plaintiff Tim Sundy Pursuant To 9-1 l-41(a)(l)(A) will be heard at 1:00
p.m. on July 30, 2018 at the Hall County Courthouse by the Honorable Martha C.
Christian. Judge of the Hall County Superior Court. Plaintiff Tim Sundv is ordered to
appear before Judge Christian on July 30.2018 at 1:00 p.m. at the Hall Countv
Courthouse.
SO ORDERED, this the 10th day of July, 2018.

LL

C. ANDREW FULLER, JUDGE
SUPERIOR COURT FOR THE
NORTHEASTERN JUDICIAL CIRCUIT

cc:

Honorable Martha C. Christian
Sundy, 227 Sandy Springs Place, Suite D-465, Sandy Springs, GA 30328
Robert C. Khayat, Jr., 75 Fourteenth Street, Suite 2750, Atlanta, GA 30309
Michael B. Weinstein, 3050 Amwiler Road, Suite 200-C, Atlanta, GA 30360
David R. Dolinsky, 2870 Pharr Court South, Unit 2801, Atlanta, GA 30305
Deirdre M. Stephens-Johnson, 1230 Peachtree Street, Suite 3750, Atlanta, GA 30309
Christian A. Fuller, State of Georgia Law Department, 40 Capitol Square, S W, Atlanta, G A 30334

A0038

s \aA->m I l“fc- '■* fi <-'9h t-j - |\to V Vo ^ 6

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC
Plaintiff,
v.

Civil Action Case No.:
2015CV001366

Mediterranean Dining Group Inc.,
Tim Sundy and David Sundy
Defendants,
v.
ARSENAL REAL ESTATE FUND II-IDF, LP;
Gary Picone; Thomas Ling; and, Michael Weinstein
Defendants in Counterclaim
INTERVENORS' STANDING OBJECTIONS TO ALL VOID ORDERS AND
PROCEEDINGS, AND NOTICE TO THE COURT OF PENDING MATTERS IN
FEDERAL COURT
Pro se Defendants Tim Sundy and David Sundy (herein as "Intervenors"), in
special appearance, prohibited by the Court and the Sheriff from filing papers
directly, immediately and physically in the office of the Clerk of Court, deprived of
equal protection and due process, subject to the bias and tyrannical partiality of the
trial court and relegated to the U.S. mail to secure proof of delivery of papers to Hall
County Superior Court, under duress and subject to possibly being put in jail if
Intervenors fail to comply with the trial court's Orders of 30 October 2017 restyling
the case, without waiver of any rights, privileges or immunities including but not
limited to constitutional rights of due process, equal protection, and equal access,
without waiver of the right to appeal with a full and complete record from the trial
l

A0039

ipimr

'kltuj

' 13Mi

O

J

■WstfefhSent
toJudgeby:_

Mim

i;
i;

.

^(OUA
• ~C-T>T" l/.

fj:...__

i

ry--------

... V

j

Clerk
Attny

OtisQ.v du

2
.. _:•_

r

---------CD—coii---r«a —-

r.

■<

/j/

_

d

/..I.

7

7/

mdL

00 j>

1

.®v

o

~Vi<Undl

I

.o
>

SP.

%

!

-----cm

—I'^C

.....

w

1

-i*

!
!
!
!.

o»

> .3^

■!■

\-

^
m

>•-n
0N
O.U •< r—=°a:;_ro__r_--.

cut Wu'H

i.

c^-

_____ •_*

. '

.

79a/M , WZKlTdU

£
dijJA..
(L
siawXl .^j/D.juJuJouA _ ..Qa^jJxmI...!fe
r
! * 1 ‘
^
IfL.ftAtL*..... ..’
II.--..--—/■U

'%tibh.k.
C^uXJr.,._ i--;_ JSk^d'

;••
!-U
!.
!
I:
V.

v
. 4 Hr
’f0 / .cdn&
<HMdOUd^

/*

I

'ri&

.
.. .■

;#

... ?.<?/£>
:•

--- <

/”/S«/

J.

wUwu

A00'

*

11

IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA
FRIENDSHIP PAVILION ACQUISITION
COMPANY, LLC
Plaintiff,
v.

Civil Action Case No.:
2015CV001366

Mediterranean Dining Group Inc.,
Tim Sundy and David Sundy
Defendants,
v.
ARSENAL REAL ESTATE FUND II-IDF, LP;
Gary Picone; Thomas Ling; and, Michael Weinstein
Defendants in Counterclaim
STANDING OBJECTION TO INCONSISTENT DUE PROCESS AND
FRAUD UPON THE COURT
Tim Sundy, Intervenor-Third party Plaintiff (“Intervenor” or “Sundy”), by special
appearance for the 2 March 2020 hearing while under threat and duress of jail upon failure to
use the above-styled caption in the dispossessory proceedings of case 2015CV1366 Hall
County Superior Court, (“HCSC”), and with the Clerk of Court ordered to not accept
Intervenor’s documents for filing if the above-styled caption is not used, submits this
STANDING OBJECTION TO INCONSISTENT DUE PROCESS AND FRAUD UPON
THE COURT to the trial court's 28 January 2020 order for a hearing on 2 March 2020.
Adopting part of Wikipedia’s definition of special appearance which states “/« a legal catch
22, if the defendant appeared solely to contest jurisdiction, the court would then be permitted
to assert jurisdiction based on the defendant's presencethe Intervenor contends that he is
not failing to “Appear” on 2 March 2020. Intervenor is “Appearing” by special appearance,
challenging the Court’s jurisdiction, avoiding a corrupt judicial system in the State of Georgia.

Page 1 of 37

A0041

PILES
HALL CG.. SA
IN THE SUPERIOR COURT OF HALL COUNTY
STATE OF GEORGIA

fflHAR-9 AM II: 1{»
CHARLES BAKER. CLERK
’SUPERIORS TATE/CwRT
GY!

Friendship Pavilion Acquisitions Co.. LLC
Plaintiff

)
Civil Action
No. 2015- CV-1366B
)

vs.

Mediterranean Dining Group, Inc.,
David Sundy and Tim Sundy,
Defendants
vs.

)

3
Michael Weinstein,
Arsenal Real Estate Fund II,
Thomas Ling,
Gary Picone,
Defendants in Counterclaim

]
)

ORDER DISMISSING NOTICE OF APPEAL PURSUANT TO O.C.G.A. SECTION 5-6-48(c) AND
LIFTING STAY
On January 28,2020, this Court entered a Notice of Show Cause Hearing Regarding, Itemized Appeal
Costs. The Notice ordered Defendant, Tim Sundy (Defendant), to appear and show cause at 9:30 a.m.
..on March 2,2020 as to why the Notice of Appeal filed, by him should not be dismissed pursuant to .___
O.C.G.A. Section 5-6-48(c). Defendant was put on notice that If he did not appear, his Notice of Appeal
could be dismissed.
The Court held a hearing on March 2,2020 at 9:30 a.m. and Defendant did not appear. Prior to the
hearing, on February 21,2020, Defendant did file a pleading titled "Standing Objectiont0 Inconsistent
Due Process and Fraud Upon the Court." This pleading has been considered by the Court.
The Court finds as follows:
On January. 2,2019, Defendant filed a Notice of Appeal to the Supreme Court of Georgia from the Final
Judgment entered in this case on December 3,2018 and "from the final disposition form with its
attached Final Judgment that was filed in this court December 6, 2018."
Page 1 of 3

A0042

A

t

Defendant was given timely and proper notice of the amount he would have to pay for the record to be
sent to the Supreme Court. He was mailed a statement of the Itemized Appeal Costs on January 15,
2019 by certified mall. The total due was $2168.00.
On February 8,2019, Defendant filed a Motion for Leave to Proceed In Forma Pauperis. On February 11,
2019, this Court entered a Rule Nisi setting a hearing on this Motion. In the Rule, the Court informed
Defendant that the Court found that his affidavit of indigency was not sufficient for the Court to make a
determination of his indigency. Defendant was ordered to appear at a hearing on March 7,2019 to
present evidence of his gross and net Income; the fair market value of all of his property; the amount of
all liens on such property; his monthly living expenses and all debt for which he claims he Is responsible.
He was ordered to present written documentation supporting his claim. The Court put Defendant on
notice that If he did not appear and present such evidence, his Motion would be denied. The hearing
was held, and Defendant did not appear.
On March 13,2019, an Order was entered denying Defendant's Motion for Leave to Proceed In Forma
Pauperis.
Defendant has not paid the Itemized Appeal Costs.
in the pleading Defendant filed on February 21,2020 (Standing Objection), Defendant stated that he
was "Appearing" by special appearance "challenging the Court's jurisdiction, avoiding a corrupt judicial
system In the State of Georgia." Defendant continues to claim, as he has in numerous pleadings, that
this Court does not have Jurisdiction to hear this case. This Court has ruled and hereby rules that this
court has not been deprived of Jurisdiction nor has this Judge been disqualified to hear the case.
Defendant complains that he should not have to pay for a record that is "incomplete." He states that
"the docket does not reflect several Items legitimately and lawfully filed within the case." However, the
only document he Identifies as not being on the docket is a document titled "December 20, 2016 JOINT
OBJECTION." A review of the docket and of the file shows that a document titled "JOINT OBJECTION TO
SUMMARY JUDGMENT HEARING" Is shown as filed on December 20, 2016 and Is in the record (In his
Objection, Defendant acknowledges that the document "was finally restored".) This document appears
___ as.ltem number 44 In Defendant's, request regarding what should be.sent to.the Supreme.Court by.the ____
Clerk. This Court is aware of Defendant's repeated claims regarding this document. Nevertheless, the
document appears to be In the record. Defendant has not shown that the record In this case Is
incomplete or not accurate.
In his Standing Objection, Defendant also claims that this Court should have dismissed the Notice of
Appeal "long ago". He bases this claim on a ruling made by the Georgia Court of Appeals which denied
his Interlocutory appeal filed the same day he filed the Notice of Appeal. He states that this Court
should know that the Court of Appeals will deny his direct appeal. This argument has no merit.
The Court finds that there has been an unreasonable delay in the transmission, of the record to the
appellate court, that the delay was Inexcusable and caused by Defendant's failure and refusal to pay
costs In the trial court. O.C.G.A. §5-6-48(c).
Page 2 of 3

A0043

w
Therefore, The Notice of Appeal filed by Defendant on January 2,2C19 is hereby DISMISSED.
On February 11,2019, this Court entered an Order staying the case until determination of the Notice of
Appeal. The Notice of Appeal having been dismissed, the stay Is lifted. The Court will proceed to
consider Plaintiff's pleading filed on December 13,2018, "MOTION PURSUANT TO O.C.G.A. 91160(d){2)(3) TO SET ASIDE THE DECEMBER 3,2018 VOID FINAL JUDGMENT FOR FRAUD UPON THE
COURT AND/OR NON-AMENDABLE EFFECTS."

SO ORDERED, thisjt^ay of March 2020

(
Martha C. Christian
Judge Hail County Superior Court
By Assignment

STATE OF GEORGIA, COUNTY OF HALL
I Charles Baker, Clerk of Superior Court in
and for said County do hereby certify that the
within is a true and correct copy of the original
as it appears on file iri this office.
Witness my official seal and signature of
Superior Court

ttiisILday/ifJ

?n _2KJ

<$etk, Deputy Clerk Mall Superior Court

Page 3 of 3

A0044

